                                   SOCIAL SECURITY
MEMORANDUM

Date:   February 1, 2006                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Controls over the Old-Age, Survivors and Disability
        Insurance Waiver Approval Process (A-13-05-15027)


        The attached final report presents the results of our audit. Our objectives were to
        determine whether (1) the Social Security Administration’s approval process for
        administrative waivers of $500 or less safeguarded the integrity of the Old-Age,
        Survivors and Disability Insurance program and (2) waiver decisions exceeding $500
        were in accordance with Title II of the Social Security Act.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                              S
                                                              Patrick P. O’Carroll, Jr.
        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



        THE SOCIAL SECURITY
   ADMINISTRATION’S CONTROLS OVER
THE OLD-AGE, SURVIVORS AND DISABILITY
 INSURANCE WAIVER APPROVAL PROCESS


   February 2006      A-13-05-15027




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                              Executive Summary
OBJECTIVE
Our objectives were to determine whether (1) the Social Security Administration’s (SSA)
waiver approval process for administrative waivers of $500 or less safeguarded the
integrity of the Old-Age, Survivors and Disability Insurance (OASDI) program and
(2) waiver decisions exceeding $500 were in accordance with Title II of the Social
Security Act.

BACKGROUND

SSA administers the OASDI program under Title II of the Social Security Act. The
OASDI program provides protection against the loss of earnings due to retirement,
disability or death. Under the program, benefit payments are provided to qualified
retired and disabled workers and their dependents as well as to survivors of insured
workers. For the fiscal year ended September 30, 2003, the OASDI program provided
benefit payments of approximately $467.5 billion to 46.9 million beneficiaries.

Payments in an amount greater than the amount to which an individual is entitled are
considered overpayments. When an overpayment occurs, Agency policies indicate
various actions should be taken to collect the amount overpaid. It is SSA’s
responsibility to identify the overpayment and pursue recovery of the debt.

Beneficiaries can seek relief from repaying an overpayment by requesting that SSA
waive the debt. Generally, SSA policy allows field office personnel to waive recovery of
an overpayment if the person is without fault and recovery would “…defeat the purpose
of Title II of the [Social Security] Act or be against equity and good conscience.”

RESULTS OF REVIEW

SSA had policies and procedures that provided safeguards for the integrity of the waiver
approval process for administrative waivers of $500 or less. We found SSA generally
complied with its policies and procedures for granting these administrative waivers.
However, we found some overpayments were waived when there were indications the
beneficiaries may have caused the overpayments or the original overpayment exceeded
the “administrative tolerance” amount of $500 established for the waivers. The
Agency’s waiver approval of these overpayments may not have been appropriate.

Further, we determined SSA generally did not comply with its waiver approval policies
and procedures for overpayments exceeding $500. We found some beneficiaries
demonstrated the financial ability to repay portions of the waived debt. The Agency’s
waiver approval of these overpayments may not have been appropriate. In addition, we




SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                  i
found waivers were granted when it appeared approval decisions did not receive
appropriate review, and there was inadequate documentation to support waiver
decisions.

We found 94 waivers did not fully comply with Agency policies and procedures. Of the
94, at least 18 waiver approvals may not have been appropriate. Based on the results
of our review, we estimate 7,660 waiver approvals totaling approximately $11.1 million
in OASDI overpayments may not have been appropriate.

CONCLUSION AND RECOMMENDATIONS
Generally, SSA complied with its administrative waiver approval policies and procedures
for OASDI overpayments of $500 or less. However, we determined that SSA did not
always comply with its waiver approval policies and procedures for overpayments
exceeding $500. SSA needs to ensure adherence to its policies and procedures to
prevent the improper waiver of OASDI overpayments. Noncompliance with Agency
waiver approval policies and procedures may result in SSA not being able to collect
OASDI overpayments that should be collected.

Therefore, for waivers exceeding $500, we recommend SSA:

1. Alert employees to follow policies and procedures when approving waivers for
   OASDI overpayments that exceed $500 regarding decisions of whether beneficiaries
   are without fault for the overpayment; and recovery of the overpayment would either
   defeat the purpose of Title II of the Social Security Act or be against equity and good
   conscience.

2. Ensure required secondary peer review and sign-off occurs for waivers of
   overpayments greater than $2,000.

3. Remind employees to properly document all waiver approval decisions.

4. Determine whether employee training is needed, and, if so, provide training
   necessary to ensure compliance with Agency policies and procedures for granting
   OASDI overpayment waivers for amounts exceeding $500.

AGENCY COMMENTS AND OIG RESPONSE
SSA generally agreed with our recommendations. The Agency also provided a
technical comment that we considered in preparing our final report.




SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                    ii
                                                                         Table of Contents
                                                                                                                     Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

SSA Generally Complied with its Policies and Procedures for Granting
Administrative Waivers............................................................................................4

    •    Administrative Waivers Approved Although Some Indication of Fault
         Existed..........................................................................................................4

    •    Administrative Waiver Policies and Procedures Should Not Have
         Been Used for Some Overpayments ............................................................4

SSA Generally Did Not Comply with its Policies and Procedures for
Granting Waivers for Amounts Exceeding $500......................................................5

    •    Some Beneficiaries Demonstrated Financial Ability to Repay
         Portion of Waived Debt.................................................................................6

    •    Waiver Approvals Lacked Paper Evidence of Required Review...................6

    •    Inadequate Documentation to Support Waiver Approvals ............................7

Significant Quantity of Approved Waivers Was Estimated to be
Noncompliant with Agency Policies and Procedures...............................................7

CONCLUSIONS AND RECOMMENDATIONS.......................................................9

OTHER MATTER..................................................................................................10

APPENDICES

APPENDIX A – Waiver Approval of Amounts Exceeding $500
APPENDIX B – Sampling Methodology and Results
APPENDIX C – Scope and Methodology
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments




SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)
                                                                     Introduction
OBJECTIVE
Our objectives were to determine whether (1) the Social Security Administration’s (SSA)
approval process for administrative waivers of $500 or less safeguarded the integrity of
the Old-Age, Survivors and Disability Insurance (OASDI) program and (2) waiver
decisions exceeding $500 were in accordance with Title II of the Social Security Act.

BACKGROUND

SSA administers the OASDI program under Title II of the Social Security Act. The
OASDI program provides protection against the loss of earnings due to retirement,
disability or death. Under the program, benefit payments are provided to qualified
retired and disabled workers and their dependents as well as to survivors of insured
workers.1 For the fiscal year ended September 30, 2003, the OASDI program provided
benefit payments of approximately $467.5 billion to 46.9 million beneficiaries.2

Payments in an amount greater than the amount to which an individual is entitled are
considered overpayments. When an overpayment occurs, Agency policies indicate
various actions should be taken to collect the amount overpaid. It is SSA’s
responsibility to identify the overpayment and pursue recovery of the debt. 3

Beneficiaries can seek relief from repaying an overpayment by requesting that SSA
waive the debt. Generally, SSA policy allows field office personnel to waive recovery of
an overpayment if the person is without fault and recovery would “…defeat the purpose
of Title II of the [Social Security] Act or be against equity and good conscience.”4 See
Appendix A for more information.

SSA procedures require that field office personnel consider all circumstances
surrounding an overpayment before granting a waiver.5 When a waiver is approved,
SSA no longer has the right to recover the debt from any other individual unless there is
a jointly liable person from whom recovery has not been waived. Once a person is
relieved of primary or joint liability, the overpayment cannot be reinstated.6 Therefore,
SSA no longer has the right to recover these overpayments.




1
  Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
2
  SSA Performance and Accountability Report FY 2003.
3
  Social Security Act § 204, 42 U.S.C. § 404.
4
  20 C.F.R. § 404.506; see also Program Operations Manual System (POMS), section GN 02250.001.
5
  POMS, section GN 02250.005.
6
  POMS, section GN 02250.360.


SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                            1
We obtained an August 20047 electronic data extract of 110,847 waiver approvals
recorded in the Master Beneficiary Record during the period September 20, 2002
through September 23, 2003. This data extract represented about $249 million in
OASDI overpayments. From this data extract, we selected the 10 highest dollar-value
waiver approvals that ranged from $97,205 to $99,999.8 These waivers totaled
approximately $989,600. From the remaining population of 110,837 waiver approvals,
we randomly selected 250 waivers. Of the 250 waiver approvals, 125 were for amounts
of $500 or less and 125 were for amounts exceeding $500. Consequently, our review
included 135 waiver approval decisions for amounts exceeding $500. We examined the
randomly selected 250 overpayment waiver approvals to provide statistically valid
projections. In addition, we discuss our findings for the 10 highest dollar amounts for
overpayments SSA waived. See Appendix B for our sampling methodology and results.




7
    The data extract was obtained from the Social Security records as of August 12, 2004.
8
    At the time of our review, SSA’s Master Beneficiary Record limited this field to five positions.


SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                                  2
                                                       Results of Review
SSA had policies and procedures that provided safeguards for the integrity of the waiver
approval process for administrative waivers of $500 or less. During our audit, we found
SSA generally complied with its policies and procedures for granting such waivers for
112 of 121 (about 93 percent) of the waivers we reviewed. However, we found some
overpayments were waived when there were indications the beneficiaries may have
caused the overpayments or the original overpayment exceeded the “administrative
tolerance”9 amount of $500 established for the waivers. The Agency’s waiver approval
of these overpayments may not have been appropriate.

Further, we determined SSA generally did not comply with its waiver approval policies
and procedures for overpayments exceeding $500. During our audit, we found SSA did
not fully comply with its policies and procedures for granting such waivers for 85 of
129 (about 66 percent) of the waivers we reviewed. We found some beneficiaries
demonstrated the financial ability to repay portions of the waived debt. The Agency’s
waiver approval of these overpayments may not have been appropriate. In addition, we
found waivers were granted when it appeared approval decisions did not receive
appropriate review, and approvals lacked appropriate documentation to support
approval decisions.

Based on the results of our review of 250 waiver approvals, we found 94 waivers did not
fully comply with Agency policies and procedures. Of the 94, at least 18 waiver
approvals may not have been appropriate. We estimate 7,660 waiver approvals,
totaling approximately $11.1 million in OASDI overpayments, may not have been
appropriate.10 One of the 18 was included in the 10 highest dollar amount waiver
approvals we reviewed. For this one waiver, we found the Agency did not pursue
$9,370 available for collection. Since the Agency did not pursue collection of these
available funds, SSA’s actions did not comply with its policies and procedures. 11




9
  Administrative tolerance refers to the maximum dollar value allowed for administrative waiver.
10
   This is an estimate for approved OASDI overpayment waivers recorded in the Master Beneficiary
Record from September 20, 2002 to September 23, 2003, for amounts less than $97,205. This estimate
is based on 250 randomly selected waiver approvals and excludes the 10 highest dollar-value waiver
approvals, which ranged from $97,205 to $99,999. Therefore, the estimate is based on 17 waiver
approvals that may not have been appropriate and excludes 1 waiver approval for an amount greater
than $97,205 (see Appendix B). We believe this is a conservative estimate.
11
   POMS, section GN 02250.115.


SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                                3
SSA GENERALLY COMPLIED WITH ITS POLICIES AND PROCEDURES FOR
GRANTING ADMINISTRATIVE WAIVERS

Agency policy indicates when a liable person requests an overpayment waiver and the
total amount of that person's liability is $500 or less, recovery of the overpayment will be
waived because it would impede the efficient administration of the Social Security Act
“…unless there is some indication that the person may not be without fault.”12 SSA
classifies overpayment waivers involving an amount less than or equal to $500 as an
administrative waiver. Of the 260 waiver approvals included in our review, 125 were
administrative waivers. We requested information about the waiver approval decisions
from SSA. The Agency provided data for 121 administrative waivers.13

Generally, we found administrative waiver approvals complied with Agency policies and
procedures. Of the 121 administrative waiver approvals we examined, 112 complied
with SSA policies and procedures. The remaining nine, totaling approximately $2,200,
did not comply with Agency policies and procedures. For these nine, we found some
overpayments were waived when the beneficiary may have caused the overpayment or
the original overpayment exceeded the $500 administrative waiver amount. The
Agency’s waiver approval of these overpayments may not have been appropriate.

                          We found the Agency approved some administrative waivers
Administrative
                          although the beneficiaries may have caused the
Waivers Approved
                          overpayment. Based on our discussions with representatives
Although Some
                          from SSA’s Office of Income Security Policy, before granting
Indication of Fault       an administrative waiver, there should not be any indication
Existed                   that the person requesting the waiver was at fault for causing
                          the overpayment. Of the nine administrative waiver approvals
that did not comply with SSA policies and procedures, five had some indication the
beneficiaries may have been at fault for causing the overpayments. The causes of the
overpayments included an unreported marriage, earnings, duplicate monthly payments,
and a minor child no longer in a parent’s care. The approved waiver amounts totaled
about $950.

Administrative             Of the nine administrative waiver approvals that did not
Waiver Policies and        comply with Agency policies and procedures, four were not
                           appropriate because the initial overpayment amounts
Procedures Should
                           exceeded $500. The four initial overpayments were
Not Have Been Used
                           $5,425, $2,589, $1,338, and $759. However, at the time of
for Some
                           our review, portions of the overpayments had been repaid to
Overpayments
                           SSA. These repayments reduced each of the four
                           overpayment amounts to less than $500. As a result, at the
time of our review, the waivers for the four overpayments totaled about $1,280.

12
  POMS, section GN 02250.350.
13
  Since the Agency did not provide us the requested data, we were unable to determine whether SSA
complied with its waiver approval policies and procedures for the four administrative waivers. No further
review of these waivers occurred.


SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                                       4
We found the Agency did not always follow its policies and procedures for approving
waivers for overpayments that originally exceeded the $500 administrative tolerance14
amount. The Agency’s ability to apply the $500 tolerance depends on the total amount
of a person's liability. If an overpayment of more than $500 has been reduced to
$500 or less by repayment, the administrative waiver policies and procedures do not
apply.15 Consequently, the four waiver approvals may have been inappropriate since
the original overpayment amount exceeded $500. The Agency should not have applied
its administrative waiver policies and procedures to these overpayments.

SSA GENERALLY DID NOT COMPLY WITH ITS POLICIES AND PROCEDURES
FOR GRANTING WAIVERS FOR AMOUNTS EXCEEDING $500

Our review included 135 waiver approval decisions for amounts exceeding $500. We
randomly selected 125 waiver approvals for projection purposes, and we reviewed the
10 highest dollar amounts for overpayments SSA waived. We requested the Agency
provide documentation to support these waiver approval decisions. In response to our
request, the Agency provided us data for 129 waiver approvals.16 Agency policy
indicated that, before approving a waiver request for an overpayment amount exceeding
$500, the Agency must determine whether (1) a person is without fault and (2) recovery
would either “…defeat the purpose of [Title II of the Social Security] Act or be against
equity and good conscience.”17 See Appendix A for specific details.

Generally, we found the waiver approval decisions did not comply with Agency policies
and procedures. Of the 129 waiver approvals we examined, 85 (about 66 percent) did
not comply with SSA policies and procedures. We found waiver approvals totaling
about $842,000 were granted when it appeared individuals were able to repay a portion
of the debt. The Agency’s waiver approval of these overpayments may not have been
appropriate. In addition, we found waivers were granted when it appeared approval
decisions did not receive appropriate review, and approvals lacked appropriate
documentation to support approval decisions.




14
   Id.
15
   Id.
16
   Since the Agency did not provide us the requested data, we were unable to determine whether SSA
complied with its waiver approval policies and procedures for the six waivers. No further review of these
waivers occurred.
17
   POMS, section GN 02250.001.


SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                                       5
                            We found SSA waived some overpayments when
Some Beneficiaries
                            beneficiaries demonstrated the financial ability to repay a
Demonstrated
                            portion of the waived debt. Of the 85 waiver approvals that
Financial Ability to        did not comply with SSA policies and procedures,
Repay Portion of            9 individuals demonstrated the financial ability to repay
Waived Debt                 portions of the debt the Agency waived. The Agency’s waiver
                            approval for these overpayments may not have been
appropriate.

Of the nine, SSA determined eight individuals’ monthly incomes exceeded their monthly
expenses. These eight waivers totaled approximately $31,500. For another individual,
the Agency waived the entire overpayment of about $100,000 when there were assets
available to repay at least $9,370 of the debt. The Agency chose not to pursue these
assets.

SSA is required to consider a beneficiary’s financial ability to repay a debt before
approving an overpayment waiver request. The Agency reviews a beneficiary’s monthly
income compared to monthly expenses. Further, the Agency is required to determine
whether the beneficiary has any assets available to liquidate the debt. The beneficiary’s
adjusted household expense is compared to the beneficiary’s monthly income to
determine whether the beneficiary has the financial ability to repay the debt.18 (see
Other Matter).

In addition, the Agency evaluates a beneficiary’s assets that could be used to reduce
the overpayment when determining the beneficiary’s financial ability to repay the debt.
For instance, recovery of an overpayment would “defeat the purpose of Title II of the
Social Security Act” if assets are reduced to below $3,000 for a person without
dependents or below $5,000 for a person with one dependent, plus $600 for each
additional dependent.19

Waiver Approvals          During our audit, we found waiver approvals for overpayments
Lacked Paper              greater than $2,000 lacked paper evidence that the decision
Evidence of               was reviewed as required. SSA policy states “If the amount for
Required Review           which the person is liable is over $2,000, the decision must be
                          reviewed by the decision maker's peer in the... [field office]
before notice is sent to the person.”20 Of the 85 waiver approvals that did not comply
with SSA policies and procedures, 10 did not have paper evidence that appropriate
review by the decisionmaker’s peer occurred. These waiver approvals totaled about
$77,000.

In one instance, we identified an SSA employee who had approved a waiver of over
$16,000. This employee had the same surname as the numberholder. After our
review, we notified our Office of Investigations. The investigation determined that there

18
   POMS, section GN 02250.115.
19
   Id.
20
   POMS, section GN 02250.301 B.3.


SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                       6
was no relationship between the SSA employee and the claimant, and no apparent
collusion in the application of the waiver. The case was referred to the Agency for
administrative action based upon the employee's failure to follow POMS.

Inadequate                    We found overpayments exceeding $500 were waived without
Documentation to              documentation to support the waiver approvals. Form
Support Waiver                SSA-632-BK, The Request for Waiver of Overpayment
Approvals                     Recovery or Change in Repayment Rate, is used to gather
                              information to support an overpayment waiver approval. The
Form documents:

•     how the overpayment occurred;
•     whether the waiver requestor was at fault for causing the overpayment; and
•     whether the waiver requestor has the financial ability to repay the overpayment.

Of the 85 waiver approvals that did not comply with SSA policies and procedures, we
found 66 had inadequate documentation to support the waiver approvals. There is
inadequate documentation to support waiver approvals for approximately $724,000 in
overpayments. Consequently, we are unable to determine whether the Agency properly
approved these waived OASDI overpayments. We found the Forms SSA-632-BK were
missing; income was not always verified; and some expenses were not reviewed. As a
result, we were unable to assess the Agency’s decisions about individuals being without
fault or lacking financial ability to repay the overpayments.

SIGNIFICANT QUANTITY OF APPROVED WAIVERS WAS ESTIMATED TO BE
NONCOMPLIANT WITH AGENCY POLICIES AND PROCEDURES

We discussed the results of our review with Agency representatives. We received
250 of the 260 waiver approvals we requested. Consequently, we were unable to
determine whether SSA complied with its waiver approval policies and procedures for
these 10 waivers.21

For the 250 waiver approvals received, Agency representatives were informed
94 (totaling about $844,200) did not comply with SSA’s policies and procedures. These
waivers included nine administrative waivers totaling about $2,200 where there were
indications the beneficiaries may have been at fault for causing the overpayments or the
original overpayment exceeded the $500 administrative tolerance amount. In addition,
we discussed the 85 waivers involving amounts that exceeded $500 where some
beneficiaries demonstrated the financial ability to repay portions of the waived debt,
waiver approvals lacked paper evidence of required review, and there was inadequate
documentation to support waiver decisions. These waivers totaled about $842,000.
The Agency representatives concurred with the results of our examination of the OASDI
overpayment waivers.


21
     We did not determine why the Agency was unable to provide us with the 10 case folders.


SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                         7
Of the 94, at least 18 waiver approvals may not have been appropriate. We estimate
7,660 waiver approvals, totaling approximately $11.1 million in OASDI overpayments,
may not have been appropriate. One of the 18 was included in the 10 highest dollar
amount waiver approvals we reviewed. For this one waiver, we found the Agency did
not pursue $9,370 available for collection. Since the Agency did not pursue collection of
these available funds, SSA’s actions did not comply with its policies and procedures.22
Because SSA approved the waivers for all liable individuals, the OASDI overpayments
cannot be reinstated. Therefore, the Agency no longer has the right to recover any of
the debt associated with these overpayments.




22
     Id.


SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                   8
                                                  Conclusions and
                                                 Recommendations
Beneficiaries can seek relief from repaying an overpayment by requesting that SSA
waive the debt. Once a person is relieved of primary or joint liability, the overpayment
cannot be reinstated.23 Therefore, SSA no longer has the right to recover these
overpayments.

Generally, SSA complied with its administrative waiver approval policies and procedures
for OASDI overpayments of $500 or less. However, we determined that SSA did not
always comply with its waiver approval policies and procedures for overpayments
exceeding $500. SSA needs to ensure adherence to its policies and procedures to
prevent the improper waiver of OASDI overpayments. Noncompliance with Agency
waiver approval policies and procedures may result in SSA not being able to collect
OASDI overpayments that should be collected.

Therefore, for waivers exceeding $500, we recommend SSA:

1. Alert employees to follow policies and procedures when approving waivers for
   OASDI overpayments that exceed $500 regarding decisions of whether beneficiaries
   are without fault for the overpayment; and recovery of the overpayment would either
   defeat the purpose of Title II of the Social Security Act or be against equity and good
   conscience.

2. Ensure required secondary peer review and sign-off occurs for waivers of
   overpayments greater than $2,000.

3. Remind employees to properly document all waiver approval decisions.

4. Determine whether employee training is needed, and, if so, provide training
   necessary to ensure compliance with Agency policies and procedures for granting
   OASDI overpayment waivers for amounts exceeding $500.

AGENCY COMMENTS AND OIG RESPONSE

SSA generally agreed with our recommendations. The Agency also provided a
technical comment that we considered in preparing our final report. The full text of the
Agency’s comments is included in Appendix D.




23
     POMS, section GN 02250.360.


SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                      9
                                                               Other Matter
SSA is required to consider a beneficiary’s financial ability to repay a debt before
approving an overpayment waiver request. The Agency reviews a beneficiary’s monthly
income compared to monthly expenses. Further, the Agency is required to determine
whether the beneficiary has any assets available to liquidate the debt.24

When comparing a beneficiary’s monthly income to the household’s monthly expenses,
the Agency established a $25 margin to account for a household’s unbudgeted or
unaccountable expenses. The term “$25 margin” denotes an allowance for an expense
not accounted for in any expense category. The $25 margin is added to the
household’s monthly accountable expenditures. The sum of the margin and household
monthly expenditures is the “adjusted household expense.” The adjusted household
expense is compared to the beneficiary’s monthly income to determine whether the
beneficiary has the financial ability to repay the debt.25

The Agency may want to review the established $25 threshold it uses as the allowance
for expenses not accounted for in any expense category. SSA may want to consider
various factors to determine whether this amount should be adjusted.




24
     POMS, section GN 02250.115.
25
     Id.




SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)              10
                                          Appendices




SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)
                                                                         Appendix A

Waiver Approval of Amounts Exceeding $500
Agency policy indicated that, before approving a waiver request for an overpayment
amount exceeding $500, the Agency must determine whether (1) a person is without
fault and (2) recovery would either “defeat the purpose of [Title II of the Social Security]
Act or be against equity and good conscience.”1

Without Fault

Without fault is found if the person was blameless in creating the overpayment. An
individual is expected to exercise a high degree of care in preventing an overpayment.
Any individual who demonstrates either a lack of good faith or failure to exercise a high
degree of care in reporting circumstances that may affect entitlement to, or the amount
of, benefits will be found at fault for the overpayment. 2

Defeat the Purpose of Title II of the Social Security Act

“Recovery of an overpayment will defeat the purpose of Title II of the Social Security Act
if recovery would deprive a person of income required for ordinary and necessary living
expenses.”3 Also, recovery of an overpayment would defeat the purpose of Title II of
the Social Security Act to the extent the person does not have any of the overpaid funds
in his possession when notified of the overpayment and the person receives cash public
assistance or needs substantially all current income to meet ordinary and necessary
living expenses and recovery would reduce assets below specific limits.4




1
  Program Operations Manual System (POMS), section GN 02250.001.
2
  POMS, section GN 02250.005.
3
  POMS, section GN 02250.100.
4
  Id.



SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                     A-1
Against Equity and Good Conscience

Recovery of an overpayment would be considered against equity and good conscience
if a beneficiary, “…relying on benefit payments or notice that such payments would be
made, relinquished a valuable right or changed his/her position for the worse; a
contingently liable beneficiary was living in a separate household from the overpaid
person at the time of the overpayment and did not receive the overpayment; or benefits
are not available to reduce or eliminate amounts incorrectly paid solely because of the
application filing requirements.”5




5
    POMS, section GN 02250.150.




SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)               A-2
                                                                                         Appendix B

Sampling Methodology and Results
                                   SAMPLE POPULATION
                         FROM THE MASTER BENEFICIARY RECORD
                       September 20, 2002 THROUGH September 23, 2003

                       Strata                     Waiver Approvals                  Dollar Amount

    $500 or Less                                                 71,762                           7,648,183
    Exceeding $500                                               39,075                         240,645,051
    Total                                                       110,837                         248,293,234


We selected a random sample of 250 waiver approvals from the Master Beneficiary
Records from September 20, 2002 to September 23, 2003. We selected 125 waiver
approvals where the amount was $500 or less and 125 items where the waiver
approvals exceeded $500.

We also selected the highest 10 dollar waiver approval decisions which ranged from
$97,205 to $99,999.1

      Stratified Attribute Appraisal: Overpayment Waiver Approvals That May Not
                          Have Been Appropriate Under $97,205
    Total Population                                                                                   110,837
    Sample Size                                                                                           250
    Number of Inappropriate Waiver Approvals                                                               17
    Projection of Inappropriate Waiver Approvals in Population:
        Lower Limit                                                                                      4,588
        Point Estimate                                                                                   7,668
        Upper Limit                                                                                     10,747


We made all projections at the 90-percent confidence level.




1
    At the time of our review, SSA’s Master Beneficiary Record limited this field to five positions.


SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                                       B-1
    Stratified Variable Appraisal: Overpayment Waiver Approvals That May Not
                        Have Been Appropriate Under $97,205
 Total Population                                                         110,837
 Total Sample Size                                                            250
 Total Dollars of Inappropriate Waiver Approvals in Sample                $33,755
 Projected Value of Inappropriate Waiver Approvals:
     Lower Limit                                                         3,348,844
     Point Estimate                                                     11,137,095
     Upper Limit                                                        18,925,345


We made all projections at the 90-percent confidence level.

  Overpayment Waiver Approvals That May Not Have Been Appropriate $97,205
                                and Above
  Total Population                                                             10
  Number Reviewed                                                              10
  Number of Inappropriate Waiver Approvals                                      1
  Total Dollars of Inappropriate Waiver Approvals                          $9,370




SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)           B-2
                                                                                       Appendix C
Scope and Methodology
To accomplish our objectives, we:

•   Reviewed applicable Federal laws and regulations governing overpayment waivers
    under Title II of the Social Security Act.

•   Reviewed the Social Security Administration’s (SSA) policies and procedures related
    to the waiver approval process.1

•   Reviewed prior Office of the Inspector General reports.

•   Obtained an August 20042 electronic data extract of 110,847 waiver approvals
    recorded in the Master Beneficiary Record during the period September 20, 2002
    through September 23, 2003. This data extract represented about $249 million in
    OASDI overpayments. From this data extract, we selected the 10 highest dollar-
    value waiver approvals which ranged from $97,205 to $99,999.3 These waivers
    totaled approximately $989,600. From the remaining population of 110,837, we
    randomly selected 250 waivers. Of the 250 waiver approvals, 125 were for amounts
    of $500 or less and 125 waiver approvals for amounts exceeding $500.
    Consequently, our review included 135 waiver approval decisions for amounts
    exceeding $500. We examined the randomly selected 250 overpayment waiver
    approvals to provide statistically valid projections. In addition, we discuss our
    findings for the 10 highest dollar amounts for overpayments SSA waived. See
    Appendix B.

We concluded the electronic data used in our audit were sufficiently reliable, given the
audit objectives and intended use of the data, and should not lead to incorrect or
unintentional conclusions. We assessed the reliability of the electronic data by
requesting SSA field office staff confirm specific data fields from the Master Beneficiary
Records including beneficiaries name, beneficiaries’ Social Security number, and dollar
amounts waived. We also conducted detailed audit testing on selected data elements
from the electronic files.

We performed our review at SSA’s Headquarters in Baltimore, Maryland. The entity
reviewed was the Office of the Deputy Commissioner for Operations. We performed
our review from November 2004 through May 2005 in accordance with generally
accepted government auditing standards.


1
  Program Operations Manual System, section GN 02200.
2
  The data extract was obtained from the Social Security records as of August 12, 2004.
3
  At the time of our review, SSA’s Master Beneficiary Record limited this field to five positions.




SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)
                                                                        Appendix D

Agency Comments




SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)
                                          SOCIAL SECURITY

MEMORANDUM


Date:      January 13, 2006                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "The Social Security Administration's
           Controls over the Old-Age, Survivors and Disability Insurance Waiver Approval Process"
           (A-13-05-15027) -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




           SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                       D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "THE SOCIAL SECURITY ADMINISTRATION'S CONTROLS OVER THE
OLD-AGE, SURVIVORS AND DISABILITY INSURANCE WAIVER APPROVAL
PROCESS" (A-13-05-15028)

Thank you for the opportunity to review and comment on the draft report. We agree with the
intent of the report and its recommendations.

Since the implementation of the Debt Management System (DMS) in 1988, SSA has instituted a
systems safeguard that requires a second personal identification number (PIN) entry (2-PIN
Process) for waivers of Title 2 (T2) overpayments that exceed the tolerance amount. In an effort
to continue to protect SSA programs, we periodically issue program circulars or produce
resource and desk guides to assist field employees with the proper documentation requirements.
In addition, several workgroups or workshops have been conducted to develop ways to further
emphasize the proper processing of T2 waivers, proper screen completion (Remarks) and proper
documentation. Many of the desk guides that are posted to the "T2 Resource Kits" on the
Agency's Intranet site (such as the T2 Waiver Process Handbook done by the Philadelphia
Region in December 2004 and the DMS Processing Guide that was last updated in April 2005)
are a direct result of these workshops.

SSA’s most recent emphasis, however, has been to provide training in the processing of
Title 16 (T16) overpayment waivers. The 2-PIN Process was instituted for Title 16 on April 24,
2004. To assist technicians, as we make steady progress toward a fully electronic folder system,
we will continue to issue reminders on the policies and procedures for processing both T2 and
T16 overpayments, focusing on the proper paper documentation requirements.

We take issue with the findings as presented on page 4 of the draft under the section,
"Administrative Waivers Approved Although Indication of Fault Existed." Per
GN 02250.350, “If there is an indication that the person may be at fault in causing the
overpayment, the tolerance cannot be used.” Therefore, whenever an overpayment is within the
tolerance, we do not develop fault unless there is a strong indication that the individual is
probably at fault. While we agree that duplicate check negotiations would strongly indicate the
person would be at fault, the other examples given in the report (unreported marriage, earnings,
and a minor child no longer in a parent’s care) do not of themselves strongly indicate fault Only
through further development could we discern an indicator of fault. Since we should not
routinely develop waiver issues for overpayments that impede efficient administration of the
Social Security Act, it does not appear that the cited examples present situations where waiver
under the tolerance was inappropriate.

Our specific responses to the report's recommendations are provided below.

Recommendation 1
Alert employees to follow policies and procedures when approving waivers for Old-Age,
Survivors and Disability Insurance (OASDI) overpayments that exceed $500 regarding decisions
of whether beneficiaries are without fault for the overpayment; and recovery of the overpayment
would either defeat the purpose of Title II of the Social Security Act or be against equity and
good conscience.
SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                        D-2
Response:

We agree. We will issue a reminder in the form of an Administrative Message and will request
that the Office of Training present it during one of the transmittal training broadcast sessions no
later that March 2006.

Recommendation 2
Ensure required secondary peer review and sign-off occurs for waivers of overpayments greater
than $2,000.

Response:

Based on the discussion of this issue during the entrance conference, it is only the paper
documentation that lacked a “second signature” review based on the amount of overpayment.
When a waiver approval is input into the Debt Management System (DMS), the program looks
at the amount of the overpayment. If the debt amount is greater than $2,000, the DMS holds the
transaction until the Review Waiver Disposition (DRWR) is completed. Therefore, all of the
waivers posted to the Recovery of Overpayments, Accounting and Reporting (ROAR) system
obtained a “second PIN” signature signifying that the second review had been completed.
However, in the administrative message addressing Recommendation 1 above, we will also
remind the field offices that the secondary peer reviewer also needs to sign the SSA-635 Waiver
Determination to ensure proper documentation.

Recommendation 3

Remind employees to properly document all waiver approval decisions.

Response:

We agree. We will issue a reminder by March 2006.

Recommendation 4

Determine whether employee training is needed, and, if so, provide training necessary to ensure
compliance with Agency policies and procedures for granting OASDI overpayment waivers for
amounts exceeding $500.

Response:

We agree. We will encourage employees to review the training material already available such
as the T2 resource kits, DMS desk aids, and to conduct refresher training as needed.




SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)                           D-3
                                                                        Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division (410)-966-9365
   Brian Karpe, Audit Manager, (410) 966-1029


Acknowledgments

In addition to those named above:

   Janet Stein-Pezza, Analyst-in-Charge
   Chad Kardian, Auditor
   Kim Beauchamp, Writer-Editor
   Brennan Kraje, Statistician

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-05-15027.




SSA’s Controls over the OASDI Waiver Approval Process (A-13-05-15027)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
